CERTIFICATE OF COMPLIANCE
No. 20-1499
AMERICAN CIVIL LIBERTIES UNION,
Petitioner,

v.
UNITED STATES OF AMERICA,
Respondent.

As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amici
Curiae the Reporters Committee for Freedom of the Press and 34 Media
Organizations complies with the typeface requirement of Supreme Court Rule
33.1(b), being prepared in Century Schoolbook 12 point for the text and 10 point for
the footnotes, and with the word count limit of Supreme Court Rule 33.1(g),
containing 5875 words, excluding the parts that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 27, 2021.
/s/Bruce D. Brown
Bruce D. Brown
THE REPORTERS COMMITTEE FOR
FREEDOM OF THE PRESS
1156 15th St. NW, Suite 1020
Washington, DC 20005
(202) 795-9300

